   AUDIT OF THE OFFICE ON VIOLENCE 

 AGAINST WOMEN GRANTS AWARDED TO

CITIZENS AGAINST PHYSICAL AND SEXUAL

         ABUSE, LOGAN, UTAH


       U.S. Department of Justice

     Office of the Inspector General

              Audit Division



      Audit Report GR-60-13-003

            February 2013

      AUDIT OF THE OFFICE ON VIOLENCE AGAINST
     WOMEN GRANTS AWARDED TO CITIZENS AGAINST
      PHYSICAL AND SEXUAL ABUSE, LOGAN, UTAH

                         EXECUTIVE SUMMARY

      The U.S. Department of Justice, Office of the Inspector General, Audit
Division, has completed an audit of three grants totaling $2,261,837
awarded by the Office on Violence Against Women (OVW) to Citizens Against
Physical and Sexual Abuse (CAPSA), as shown in Exhibit 1.

  EXHIBIT 1: OVW GRANTS AWARDED TO CAPSA
                                                PROJECT
          AWARD NO.           AWARD DATE       END DATE         AMOUNT
       2005-WH-AX-0038         09/12/05        09/30/12       $   667,782
       2007-FW-AX-K003         09/11/07        09/30/13         1,249,824
       2009-EH-S6-0047         09/17/09        06/30/13           344,231
                                                  TOTAL:      $2,261,837
  Source: OJP’s Grant Management System

       Grant No. 2005-WH-AX-0038 was awarded under the Transitional
Housing Assistance Grants for Victims of Domestic Violence, Dating Violence,
Stalking, or Sexual Assault Program. The purpose of the grant was to
increase survivors' ability to obtain safe affordable housing and increase
self-sufficiency. Grant No. 2007-FW-AX-K003 was awarded under
Education, Training, and Enhanced Services to End Violence Against and
Abuse of Women with Disabilities Grant Program (Disability Grant Program).
The purpose of the grant was to develop a collaboration of partnering
agencies to enhance services for survivors with mental health and
intellectual disabilities. Grant No. 2009-EH-S6-0047 was awarded under the
Recovery Act Transitional Housing Assistance Grants for Victims of Domestic
Violence, Dating Violence, Stalking, or Sexual Assault. The purpose of the
grant was to increase survivors' ability to obtain safe affordable housing and
to develop individualized plans for self-sufficiency, including financial
counseling.

Our Audit Approach

       The objectives of this audit are to review performance in the following
areas: (1) internal control environment, (2) drawdowns, (3) grant-related
transactions, including personnel costs, (4) budget management and control,
(5) financial and progress reports, (6) award requirements, (7) monitoring of
sub-recipients, (8) property management, and (9) program performance and
accomplishments. We determined that indirect costs, program income, and


                                          i
matching were not applicable to these awards. We tested compliance with
what we consider to be the most important conditions of the grants. Unless
otherwise stated in this report, the criteria we audit against are contained in
the Office of Justice Programs (OJP) Financial Guide, the 2012 OVW Financial
Grants Management Guide where applicable, and the award documentation.

      We examined CAPSA’s accounting records, financial and progress
reports, and operating policies and procedures, and found:

   •	 $9,041 in unallowable costs used to purchase items that were not
      included as part of the approved grant budgets for all three grants,

   •	 $1,555 in unallowable costs used to reimburse staff and make
      purchases at rates that exceeded the rates approved in the grant
      budgets for Grant Nos. 2005-WH-AX-0038 and 2007-FW-AX-K003,

   •	 $490 unallowable costs used to purchase prohibited items for all three
      grants,

   •	 $14,850 in unallowable costs used for salary and fringe benefits
      expenditures that were not included as part of the approved grant
      budgets for Grant Nos. 2005-WH-AX-0038 and 2007-FW-AX-K003,

   •	 $1,971 in unallowable costs used for salary expenditures charged to
      the grants that exceeded an appropriate cost allocation based on time
      worked on the grants for Grant Nos. 2005-WH-AX-0038 and
      2009-EH-S6-0047,

   •	 CAPSA did not consistently obtain supervisor approval on timesheets,
      and

   •	 CAPSA reported financial information in both Federal Financial Reports
      (FFR) and Recovery Act reports that did not match the organization’s
      accounting records.

      This report contains seven findings and recommendations, which are
detailed in the Findings and Recommendations section of the report. Our
audit objectives, scope, and methodology are discussed in Appendix I.




                                       ii
                                    Table of Contents


INTRODUCTION ................................................................................ 1

  Background.......................................................................................2

  Our Audit Approach............................................................................3

FINDINGS AND RECOMMENDATIONS................................................ 5

 Internal Control Environment ..............................................................5

   Single Audit....................................................................................5

   Financial Management System..........................................................5

 Drawdowns .......................................................................................6

 Grant Expenditures ............................................................................7

   Items Not Included in the Approved Grant Budgets .............................7

   Excess Rates ................................................................................ 10

   Prohibited Items ........................................................................... 10

   Payroll ......................................................................................... 11

 Budget Management and Control ....................................................... 13

 Grant Reporting............................................................................... 13

   Financial Reporting........................................................................ 13

   Progress Reports........................................................................... 15

   Recovery Act Reports .................................................................... 16

 Program Performance and Accomplishments ....................................... 17

   Grant No. 2005-WH-AX-0038 ......................................................... 17

   Grant No. 2007-FW-AX-K003.......................................................... 18

   Grant No. 2009-EH-S6-0047 .......................................................... 19

 Conclusion ...................................................................................... 19

 Recommendations ........................................................................... 21

APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY ............... 22

APPENDIX II: SCHEDULE OF DOLLAR-RELATED FINDINGS ............ 23

APPENDIX III: CITIZENS AGAINST PHYSICAL AND SEXUAL ABUSE

RESPONSE TO DRAFT AUDIT REPORT ............................................. 24

APPENDIX IV: OFFICE ON VIOLENCE AGAINST WOMEN RESPONSE 

TO DRAFT AUDIT REPORT............................................................... 26

APPENDIX V: OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND 

SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT .......... 29

 AUDIT OF THE OFFICE ON VIOLENCE AGAINST WOMEN

GRANTS AWARDED TO CITIZENS AGAINST PHYSICAL AND

            SEXUAL ABUSE, LOGAN, UTAH


                                  INTRODUCTION


      The U.S. Department of Justice, Office of the Inspector General, Audit
Division, has completed an audit of three grants totaling $2,261,837
awarded by the Office on Violence Against Women (OVW) to Citizens Against
Physical and Sexual Abuse (CAPSA), as shown in Exhibit 1. 1

  EXHIBIT 1: OVW GRANTS AWARDED TO CAPSA
                                                         PROJECT
             AWARD NO.              AWARD DATE          END DATE          AMOUNT
          2005-WH-AX-0038            09/12/05           09/30/12         $  667,782
          2007-FW-AX-K003            09/11/07           09/30/13          1,249,824
          2009-EH-S6-0047            09/17/09           06/30/13            344,231
                                                           TOTAL:       $2,261,837
  Source: OJP’s Grant Management System

       Grant No. 2005-WH-AX-0038 was awarded under the Transitional
Housing Assistance Grants for Victims of Domestic Violence, Dating Violence,
Stalking, or Sexual Assault Program. The purpose of the grant was to
increase survivors' ability to obtain safe affordable housing and increase self-
sufficiency, with a specific focus on survivors with disabilities, survivors
living in rural jurisdictions, and immigrants. Budgeted items included partial
funding for CAPSA personnel and subsidized housing and support services
for survivors and their families.

      Grant No. 2007-FW-AX-K003 was awarded under Education, Training,
and Enhanced Services to End Violence Against and Abuse of Women with
Disabilities Grant Program (Disability Grant Program). The purpose of the
grant was to develop a collaboration of partnering agencies to enhance
services for survivors with mental health and intellectual disabilities.
Budgeted items included partial funding for CAPSA personnel; and salaries,
supplies, and travel for collaborating agencies.

       Grant No. 2009-EH-S6-0047 was awarded under the Recovery Act
Transitional Housing Assistance Grants for Victims of Domestic Violence,
Dating Violence, Stalking, or Sexual Assault. The purpose of the grant was
to increase survivors' ability to obtain safe affordable housing and to develop
individualized plans for self-sufficiency, including financial counseling. This
grant also focused on survivors with disabilities, survivors living in rural
jurisdictions, and immigrants. Budgeted items included partial funding for


      1
          CAPSA also refers to itself as Community Abuse Prevention Services Agency.
CAPSA personnel, financial counseling, and subsidized housing and support
services for survivors and their families.

Background

       Created in 1995, the OVW administers financial and technical
assistance to communities across the country that are developing programs,
policies, and practices aimed at ending domestic violence, dating violence,
sexual assault, and stalking. The OVW’s stated mission is to provide federal
leadership in developing the nation’s capacity to reduce violence against
women, and administer justice for and strengthen services to victims.
Currently, the OVW administers 3 formula-based and 18 discretionary grant
programs, established under the Violence Against Women Act (VAWA) and
subsequent legislation. The OVW’s discretionary grant programs work to
support victims and hold perpetrators accountable through promoting a
coordinated community response. Funding is provided to local, state, and
tribal governments; courts; non-profit-organizations; community-based
organizations; secondary schools; institutions of higher education; and state
and tribal coalitions.

       The Prosecutorial Remedies and Other Tools to end the Exploitation of
Children Today Act of 2003 authorized a new program for transitional
housing assistance grants for victims of domestic violence and their children.
The OVW Transitional Housing Assistance Program focuses on a holistic,
victim-centered approach to provide transitional housing services that move
individuals into permanent housing. Grants made under this grant program
support programs that provide assistance to victims of domestic violence,
dating violence, sexual assault, and stalking who are in need of transitional
housing, short-term housing assistance, and related support services. The
Recovery Act Transitional Housing Assistance Program is an identical
program. It is funded through the American Recovery and Reinvestment Act
(Recovery Act) of 2009, P.L.111-5 with the express purpose to preserve and
create jobs and promote economic recovery.

      Congress authorized the Disability Grant Program in the Violence
Against Women and the Department of Justice Reauthorization Act of
2005 in recognition of the pressing need to focus on sexual assault,
domestic violence, dating violence, and stalking against women with
disabilities and deaf women. Disability Grant Program funds will be used to
establish and strengthen multidisciplinary collaborative relationships;
increase organizational capacity to provide safe, accessible, and responsive
services to women with disabilities and deaf women who are victims of
violence and abuse; identify needs within the grantee's service area; and
develop a plan to address those identified needs that builds a strong
foundation for future work.




                                      2

      CAPSA is a non-profit organization. The mission of CAPSA is to
provide safe, caring, and confidential shelter, advocacy, and support for
victims of domestic violence and sexual assault; and to reduce incidents of
abuse through prevention education. Specifically, CAPSA provides domestic
violence services, sexual assault services, shelter services, transitional
housing services, support and children's groups, and prevention education.
CAPSA serves rural, northern Utah in Cache and Rich counties. CAPSA
reported that Cache County is 1,174 square miles and the population is
112,656. Rich County is 1,086 square miles and the population is 2,264.
CAPSA reported that approximately 12 percent of those living in Cache and
Rich County are living with a disability. In Cache County, 13 percent of the
population lives under the poverty level and 10 percent of the population is
Hispanic or Latino. 2

Our Audit Approach

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the Office of Justice Programs (OJP)
Financial Guide, the 2012 OVW Financial Grants Management Guide where
applicable, and the award documentation. 3 We tested CAPSA’s:

   •	 internal control environment to determine whether the internal
      controls in place for the processing and payment of funds were
      adequate to safeguard grant funds and ensure compliance with the
      terms and conditions of the grant;

   •	 grant drawdowns to determine whether grant drawdowns were
      adequately supported and if CAPSA was managing grant receipts in
      accordance with federal requirements;

   •	 grant expenditures to determine the accuracy and allowability of
      costs charged to the grant;

   •	 budget management and control to determine CAPSA’s compliance
      with the costs approved in the grant budget;

   •	 Federal Financial Reports (FFR) and progress reports to
      determine if the required reports were submitted in a timely manner
      and accurately reflect grant activity, including additional requirements
      specific to the Recovery Act; and

      2
         Statements regarding the mission and intent of the OVW and CAPSA are from the
applicable agency’s literature (unaudited).
      3
        In February 2012, the OVW issued the 2012 OVW Financial Grants Management
Guide. The criteria applied to Grant No. 2007-FW-AX-K003 beginning February 2012.


                                           3

   •	 grant objectives and accomplishments to determine whether
      CAPSA was capable of meeting the grant objectives.

     The results of our analysis are discussed in detail in the Findings and
Recommendations section of the report. Our audit objective, scope, and
methodology are discussed in Appendix I.




                                      4

               FINDINGS AND RECOMMENDATIONS

      We found that CAPSA used grant funds to purchase items that
      were unallowable, including instances when purchased items
      were not included as part of the approved grant budgets, the
      actual rates charged exceeded the approved rates, and
      purchased items were prohibited. We found that CAPSA paid
      salary and fringe benefits that were not allowable, including
      instances when staff positions were not included as part of the
      approved grant budgets and salary expenditures charged to the
      grants exceeded an appropriate cost allocation. We also found
      that CAPSA did not always obtain management approval on
      timesheets. Finally, we found that CAPSA reported financial
      information that did not match the organization’s accounting
      records in both FFRs and Recovery Act reports. As a result, we
      identified questioned costs totaling $27,907 and two
      management improvements.

Internal Control Environment

       We reviewed CAPSA’s Single Audit Report and financial management
system to assess the organization’s risk of non-compliance with laws,
regulations, guidelines, and terms and conditions of the grants. We also
interviewed management and key personnel, and we observed accounting
activities to further assess risk.

Single Audit

      According to Office of Management and Budget (OMB) Circular A-133,
an entity expending more than $500,000 in federal funds in a year is
required to perform a Single Audit annually. In fiscal year (FY) 2011, CAPSA
expended federal funds totaling $640,539, meaning CAPSA was required to
perform a Single Audit. The FY 2011 Single Audit Report included one audit
finding.

      The accompanying Financial Statements with Independent Auditor’s
Report for FY 2011 included one significant deficiency related to the financial
statements, which was also included in the FY 2010 Single Audit. The
finding related to adjustments to fixed assets and accounts payable that
were not identified or booked by management. We determined that the
finding was not crosscutting to federal awards within our scope.

Financial Management System

      We reviewed CAPSA’s financial management system and interviewed
CAPSA officials. Internal control procedures for procurement and payment


                                       5

included obtaining proper approval prior to acquiring goods and disbursing
funds. Internal control procedures for payroll included tracking actual
activities for which the employees were compensated and requiring a
supervisor to approve timesheets. Internal control procedures for
monitoring sub-recipients included signed written agreements, tracking
performance through the submission of activity reports, and requiring that
reimbursement requests be accompanied by supporting documentation.

       We determined CAPSA’s internal control procedures for receiving were
not adequate. We found that there were no written policies and procedures
for receiving and there was no formal documentation to confirm receipt.
CAPSA officials indicated that they made a mental note of items received
and returned the purchase order, along with the product, to the requesting
party. There were not sufficient controls to ensure that the items ordered
and billed matched those received. CAPSA responded to this issue by
revising the receiving policy. The new policy stipulates that upon receipt of
a purchased good, the recipient completes a receiving dock report. The
report includes the number of items and the condition of items received.
The dock report is attached to the purchase order and the invoice. We
determined the updated policy is sufficient; as a result, we offer no
recommendation related to this issue.

Drawdowns

      CAPSA officials stated that drawdowns were requested on a
reimbursement basis for past expenditures and the requests were usually
monthly. According to the OJP Financial Guide, the grant recipient should
time draw down requests to ensure that federal cash on hand is the
minimum needed for disbursements to be made immediately or within
10 days. We analyzed the three grants in our audit to determine if the total
expenditures recorded in CAPSA’s accounting records were equal to, or in
excess of, the cumulative drawdowns, as shown in Exhibit 2.

  EXHIBIT 2: ANALYSIS OF DRAWDOWNS 4
                               TOTAL AMOUNT         TOTAL AMOUNT
        GRANT NUMBER              DRAWN              EXPENDED 5           DIFFERENCE
     2005-WH-AX-0038             $645,015             $644,894             $ 121
     2007-FW-AX-K003              745,985              748,841              (2,856)
     2009-EH-S6-0047              215,341              218,983              (3,642)
  Source: OVW drawdown records and CAPSA accounting records




      4
          Throughout this report differences in the total amounts are due to rounding.
      5
         The total amount expended includes expenditures recorded in CAPSA’s accounting
records ten days after the most recent drawdown date, because cash must be disbursed
immediately or within ten days.


                                              6

      For Grant Nos. 2007-FW-AX-K003 and 2009-EH-S6-0047, total
expenditures exceeded cumulative drawdowns, meaning CAPSA complied
with the minimum cash-on-hand criteria. For Grant No. 2005-WH-AX-0038,
cumulative drawdowns exceeded total expenditures by $121. CAPSA held
the excess funds on hand for 10 more days than allowed, at which time
CAPSA made additional grant disbursements. We determined holding an
extra $121 on hand for 10 days resulted in approximately $0.01 in earned
interest. We do not consider the excess cash-on-hand or the related interest
material amounts and therefore, we make no recommendation related to
drawdowns.

      CAPSA revealed that the same information is used to create both
drawdowns and Federal Financial Reports (FFR). Consequently, the
discrepancy noted above was caused by CAPSA overstating the grants'
period expenditures, as the result of including expenditures not included in
the grants' official accounting records for reporting purposes. This issue is
discussed in detail the Grant Reporting Section of this report, as it resulted
in an audit finding related to FFRs.

Grant Expenditures

      We reviewed policies and procedures and conducted sample testing of
transactions to determine if grant expenditures were allowable, reasonable,
and in compliance with the terms and conditions of the award.

       For Grant No. 2005-WH-AX-0038, we selected 60 of the 5,046 direct
cost transactions (one percent) totaling $34,522 for review. For Grant No.
2007-FW-AX-K003, we selected 59 of the 3,947 direct cost transactions (one
percent) totaling $117,283 for review. For Grant No. 2009-EH-S6-0047, we
selected 37 of the 1,899 direct cost transactions (two percent) totaling
$48,156 for review.
       For Grant No. 2007-FW-AX-K003, we identified two instances where
adjusting entries were used to (1) split an expense across two periods and
(2) update the accounts payable balance. These entries resulted in the
reclassification of expenditures that were already charged to the grant. As a
result, the grant was double charged in the amount of $7,417. We brought
this issue to CAPSA’s attention. CAPSA reversed the double entries and the
records no longer reflect the error.

Items Not Included in the Approved Grant Budgets

      According to the OJP Financial Guide, grantees are required to initiate
a Grant Adjustment Notice (GAN) for changes in scope that affect the
budget. There were a number of items purchased for all three grants that
were not included as part of the approved grant budgets. CAPSA officials
stated that they believed a number of these items fit within the scope of the



                                       7

grants. However, we did not see evidence that CAPSA contacted the OVW,
either formally through a GAN or informally through other means, to confirm
that purchasing the items did not constitute a change in scope. 6 Without the
OVW’s approval, we were not able to make a determination regarding
whether the items were within the scope of the grants. Therefore, we
consider the costs unallowable.

      For Grant No. 2005-WH-AX-0038, one of the support group
expenditures in our sample was for a meal. CAPSA officials stated that they
believed the meals fit under support group supplies. They went on to say
that women attending the groups are often single, working, and have
children. Providing meals for the women and children encourages
workgroup attendance and alleviates worry about when the family will eat.
However, we did not see meals included as part of the approved grant
budgets, in the supplies category or otherwise. We expanded our analysis to
include all grant expenditures that we were able to identify as paying for
support group meals for a total of 11 transactions totaling $553.

       For Grant No. 2009-EH-S6-0047, we also identified support group
meals not included as part of the grant budget totaling $264. This included
a total of five transactions, one from our sample and four from our expanded
analysis. Additionally, the approved grant budget for Grant No.
2009-EH-S6-0047 indicated that the financial counselor, a grant sub-
recipient responsible for providing individual financial counseling to program
clients, was allocated funding for supplies. A portion of one of the financial
counseling supplies expenditures was for meals with clients totaling $133.
Like support group meals, meals supplied by financial counselors were not
identified in the approved grant budget. As a result, we question $949, the
total cost of unapproved meals, as unallowable.

       For Grant No. 2007-FW-AX-K003, we identified a workgroup supplies
expenditure for jackets totaling $1,275. We expanded our analysis and
identified an additional workgroup supplies expenditure for water bottles
totaling $332. The jackets and water bottles were distributed to CAPSA’s
staff and the participating agencies’ staff at an end project celebration,
which CAPSA officials stated was an event encouraged by the OVW. We also
identified an expenditure for staff shirts totaling $69. Jackets, water bottles,
and shirts were not identified in the approved grant budgets. As a result, we
question $1,676, the total cost of items distributed to staff, as unallowable.



       6
            CAPSA charged $17,557 in expenditures for repair and maintenance, utilities, and
liability insurance for Independence Place units, CAPSA’s on-site transitional housing to
Grant No. 2005-WH-AX-0038. These items were not included in the approved grant
budgets. However, the OVW informed CAPSA that a GAN was not required for these costs.
Instead, the OVW provided informal approval through e-mail.



                                              8

      For Grant No. 2009-EH-S6-0047, we identified an expenditure totaling
$1,218 for blinds for the Independence Place units, CAPSA’s on-site
transitional housing. We also identified that an expenditure totaling
$976 was for warranties for appliances purchased for the transitional
housing units. CAPSA officials stated that blinds are critical to client safety
and assessing client safety was part of the grant requirements. They also
stated that they were able to obtain the appliances at a reduced cost and
had funds available for the warranty purchase. However, blinds and
appliance warranties were not identified in the approved grant budget. As a
result, we question $2,194 as unallowable.

       For Grant No. 2009-EH-S6-0047, the approved grant budget indicated
that the financial counselor was allocated funding to obtain a housing
counselor certification from a specific provider, including travel costs. We
identified two expenditures for travel and training costs that did not relate to
the listed provider. CAPSA officials stated that the financial counselors
attended alternative but similar trainings when the specific provider was not
available. This provided assurance that each counselor had the appropriate
training and provided the most effective service. However, one sub-
recipient expenditure in our sample included travel and training costs related
to the listed provider, as well as travel and training costs related to an
unlisted provider. In addition, we did not see alternative providers included
as part of the approved grant budgets. We expanded our analysis to include
all grant expenditures that we were able to identify as paying for
unapproved training and related travel for a total of three transactions. As a
result, we question $4,222 as unallowable.

      In total we identified $9,041 in unallowable costs used to purchase
items that were not included as part of the approved grant budgets.




                                       9

Excess Rates

       For Grant No. 2005-WH-AX-0038, the mileage rate in the approved
grant budget was $0.44 per mile. We identified a travel expenditure in our
sample where the mileage reimbursement exceeded the approved mileage
rate by $93. According to the OJP Financial Guide, travel costs must be in
accordance with federal policy or an organizationally approved travel policy.
We consider the mileage rate in the approved budget to constitute the
organizationally approved policy. It appears a clerical error led to the
application of the incorrect rate. For Grant No. 2005-WH-AX-0038, we also
identified two travel expenditures where the reimbursement exceeded the
per diem rate on travel days by $53. According to travel instructions for the
OVW training, grantees should reimburse staff based on federal per diem
guidelines. Federal guidelines stipulate that the first and last calendar day of
travel is calculated at 75 percent. It appears the absence of specific
language related to travel days in travel instructions for the OVW training led
to the overcharge. As a result, we question $146, the total excess travel
reimbursements, as unallowable.

      For Grant No. 2007-FW-AX-K003, CAPSA’s approved grant budget
included meals for partner meetings, workgroups, and trainings. The
approved meal costs were based on a rate per person. The approved budget
specifically identified the following rates: $10 per partner for meetings,
$15 per participant for workgroups, and $18 per attendee for trainings. We
reviewed eight meal receipts as part of our sample. The partner meeting
meal we reviewed was under the $10 per person limit. The seven
workgroup and training meals we reviewed exceeded the approved per
person limit by $1,410. It appears higher than approved meal charges per
person and the addition of gratuity and service charges resulted in CAPSA
incurring excess costs. According to the OJP Financial Guide, grantees are
required to initiate a GAN for changes in scope that affect the budget. We
did not see evidence that CAPSA contacted the OVW, either formally through
a GAN or informally through other means, to confirm that exceeding the
approved rates did not constitute a change in scope. Without the OVW’s
approval, we were not able to make a determination regarding whether the
excess costs were within the scope of the grants. Therefore, we consider
the costs unallowable. As a result we question $1,410 as unallowable.

       In total we identified $1,555 in unallowable costs used to reimburse
staff and make purchases at rates that exceeded the rates approved in the
grant budgets.
Prohibited Items

       For Grant No. 2009-EH-S6-0047, one of the transitional housing
financial assistance expenditures in our sample was for a client’s cable
television bill. CAPSA officials stated that the charges may have been



                                      10

included based on requirements from other funding sources, but can be
excluded in the future. According to the OJP Financial Guide, entertainment
is an unallowable cost. Television is entertainment; and therefore, we
consider these costs unallowable. As a result, we expanded our analysis to
include all grant expenditures that we were able to identify as paying, at
least in part, for cable television. For Grant No. 2009-EH-S6-0047, we
identified a total of three transactions totaling $149. For Grant No.
2005-WH-AX-0038, we identified three additional transactions totaling
$214. As a result, we question $363, the total prohibited entertainment
charges, as unallowable.

       For Grant No. 2007-FW-AX-K003, CAPSA’s approved grant budget
included meals for partner meetings, workgroups, and trainings. The
partner meeting meal we reviewed in the Excess Rates section above
included a $7 tip as part of the charge. According to the OJP Financial
Guide, tips are an unallowable cost. We expanded our analysis and
identified three transactions totaling $120 for breakfast workgroups.
According to the OJP Financial Guide, working breakfast are unallowable
costs. As a result we question $127, the total prohibited meal
reimbursements, as unallowable.

      In total we identified $490 in unallowable costs used to purchase
prohibited items.

Payroll

      A total of 42 transactions from our samples identified above were
salary and fringe benefit expenditures. We identified a salary expenditure in
our sample for an unapproved position. The Operations Director position
was not included as part of the approved grant budget for Grant No.
2007-FW-AX-K003 until the supplement award was approved on
September 16, 2011. However, a portion of the Operations Director’s salary
and fringe benefits were charged to Grant No. 2007-FW-AX-K003 between
December 2007 and September 2011. CAPSA officials stated that the
support duties for this grant were listed as “Secretary,” but were split
between the Administrative Assistant and Operations Director. According to
the OJP Financial Guide, grantees are required to initiate a GAN for changes
in scope, including making changes to staff responsible for implementation
of the award. CAPSA did not file a GAN related to the addition of a second
support duties position. Therefore, we consider the salary and fringe
benefits costs charged to the grant prior to September 16, 2011 as
unallowable. As a result, we question $12,430, including $11,215 in salaries
and $1,215 in fringe benefits as unallowable.

     Similarly, the Program Director position was not included as part of the
approved grant budget for Grant No. 2005-WH-AX-0038 until the



                                     11

supplement award was approved on September 23, 2008. However, a
portion of the Program Director’s salary and fringe benefits were charged to
Grant No. 2005-WH-AX-0038 between August 2007 and September 2008.
CAPSA officials stated that they recall communicating with the OVW
regarding the change, but were not able to find a record of the
communication. According to the OJP Financial Guide, grantees are required
to initiate a GAN for changes in scope, including making changes to staff
responsible for implementation of the award. Whether or not CAPSA
informally communicated with the OVW regarding the addition, CAPSA was
required to file a GAN to add this position and no GAN was filed. Therefore,
we consider the salary and fringe benefits costs charged to the grant prior to
September 23, 2008 as unallowable. As a result, we question $2,420,
including $2,239 in salaries and $181 in fringe benefits as unallowable.

      In total we identified $14,850 in unallowable costs used for salaries

and fringe benefits for staff that were not included as part of the approved 

grant budgets.


      We identified two salary expenditures in our sample where the

percentage of costs allocated to one of the three grants unreasonably

exceeded the percentage of time spent working on the grants. We

expanded our analysis to include payroll records for one employee for

23 additional periods for a total of 25 records. In total, we identified four

instances where the percentage of costs allocated to the grants exceeded 

the percentage of time spent working on the grants, as shown in Exhibit 3.


EXHIBIT 3: ALLOCATION OF SALARY COSTS
                                                                 SALARY AMOUNT
                                                                RELATED TO HOURS
                 GRANT NUMBER TO    % OF SALARY   % OF TIME   WORKED ON NON-GRANT
                 WHICH THE SALARY   CHARGED TO    WORKED ON   ACTIVITIES THAT WERE
  CHECK NO.        WAS CHARGED        GRANT         GRANT     CHARGED TO THE GRANT
    8211       2005-WH-AX-0038        100%          50%              $ 575
    8276       2005-WH-AX-0038        100%          50%                 575
    8332       2005-WH-AX-0038        100%          50%                 665
   10383       2009-EH-S6-0047         10%           0%                 156
                                                  TOTAL              $1,971
Source: CAPSA accounting records.

      According to the OJP Financial Guide, where grant recipients work on
multiple grant programs or cost activities, a reasonable allocation of costs to
each activity must be made based on time and/or effort reports (e.g.,
timesheets). We determined the four transactions above are not a
reasonable allocation of costs. The issue was likely caused by CAPSA’s
payroll procedures. CAPSA allocates payroll costs based on pre-determined
percentages that are allocated to each activity. This means CAPSA
personnel must tailor their work schedules to match the pre-determined cost
allocations. The instances we identified are representative of times when


                                        12

staff did not properly modify their schedules. As a result, we question
$1,971 as unallowable.

       During our review of payroll expenditures we found that nine of the
29 timesheets (31 percent) we examined as part of our original sample were
missing a supervisor’s signature. CAPSA officials acknowledged that they
sometimes do not obtain the signatures. According to the OJP Financial
Guide, time and/or effort reports (e.g., timesheets) must be signed by the
employee and approved by a supervisory official having firsthand knowledge
of the work performed. We recommend that CAPSA takes steps to ensure
that timesheets are consistently reviewed by the appropriate supervisor.

Budget Management and Control

      For each grant, CAPSA had an approved budget broken down by the
following categories: personnel, fringe benefits, travel, equipment, supplies,
contractual costs, and other costs. According to the OJP Financial Guide, the
grant recipient must initiate a GAN for a budget modification that reallocates
funds among budget categories, if the proposed cumulative change is
greater than 10 percent of the total award amount. We compared actual
grant expenditures to the approved grant budgets to determine whether
CAPSA transferred funds among direct cost categories in excess of
10 percent. We determined that for all three grants CAPSA complied with
the requirement, as the cumulative difference between actual category
expenditures and approved budget category totals was not greater than
10 percent.

Grant Reporting

      We reviewed the FFRs and Categorical Assistance Progress Reports
(progress reports) to determine if the required reports were timely and
accurate. We also reviewed the Recovery Act reports, which were required
for Grant No. 2009-EH-S6-0047. The reports were mostly submitted on
time and the information in the progress reports appeared to be accurate.
However, CAPSA reported financial information that did not match the
organization’s accounting records in both FFRs and Recovery Act reports.

Financial Reporting

       According to the OJP Financial Guide, grant recipients report
expenditures online using the FFR no later than 30-days after the end of
each calendar quarter. We reviewed the five most recent FFRs for each
grant for a total of 15 reports and determined all reports were submitted
prior to the FFR due dates.




                                     13

      We also reviewed financial reporting for accuracy. According to the
OJP Financial Guide, recipients shall report the actual expenditures and
unliquidated obligations incurred both for the reporting period and
cumulatively, for each award. CAPSA overstated period expenditures in
10 of the 15 reports we reviewed and understated period expenditures in
5 of the 15 reports we reviewed, as shown in Exhibit 4.

EXHIBIT 4: FFR ACCURACY BY PERIOD
                                                                     DIFFERENCE
                                  PERIOD            PERIOD             BETWEEN
                           EXPENDITURES        EXPENDITURES PER       REPORTS &
 REPORT     REPORT PERIOD  PER QUARTERLY         ACCOUNTING          ACCOUNTING
  NO.         END DATE        REPORT               RECORDS             RECORDS
 Grant No. 2005-WH-AX-0038
   24          06/30/11           $24,401          $25,918           $ (1,517)
   25          09/30/11            25,524           24,770                  755
   26          12/31/11            20,186           18,388                1,798
   27          03/31/12            16,993           16,641                  351
   28         06/30/12             19,011           18,689                  322
 Grant No. 2007-FW-AX-K003
   15          06/30/11           $77,202          $77,718            $    (516)
   16          09/30/11            55,787           56,819                (1,032)
   17          12/31/11            40,370           41,115                 (745)
   18          03/31/12            24,556           23,960                  596
   19          06/30/12            25,033           25,246                 (212)
 Grant No. 2009-EH-S6-0047
    8          06/30/11           $15,632          $15,575            $      57
    9          09/30/11            14,506           14,125                  381
   10          12/31/11            13,845           13,623                  222
   11          03/31/12            20,213           19,997                  216
   12          06/30/12            15,129           14,939                  190
Source: OJP’s Grant Management System and CAPSA accounting records

     The cumulative expenditures reported in the FFRs for all three grants
were overstated as of June 30, 2012, as shown in Exhibit 5.




                                        14

EXHIBIT 5: CUMULATIVE FFR ACCURACY

                                                                     DIFFERENCE
                                CUMULATIVE        CUMULATIVE           BETWEEN
                               EXPENDITURES    EXPENDITURES PER       REPORTS &
 REPORT     REPORT PERIOD      PER QUARTERLY     ACCOUNTING          ACCOUNTING
  NO.         END DATE            REPORT           RECORDS             RECORDS
 Grant No. 2005-WH-AX-0038
   28         06/30/12          $645,015          $640,061             $4,954
 Grant No. 2007-FW-AX-K003
   19           06/30/12          745,985          745,795                191
 Grant No. 2009-EH-S6-0047
   12           06/30/12          215,341          212,502              2,839
Source: OJP’s Grant Management System and CAPSA accounting records

       In response to our inquiry regarding the discrepancies, CAPSA officials
stated that CAPSA incurred some allowable program expenditures that were
not classified as program expenditures in the accounting system. When
monthly reports were being prepared CAPSA officials identified these
expenditures as grant expenditures, despite being classified under a
non-grant fund. CAPSA officials reported the expenditures in the FFRs and
in some cases did not go back and reclassify the expenditures under the
grant programs. CAPSA officials stated that they will work to update records
to reflect the actual expenditures. The discrepancies were not corrected, as
of the completion of our audit. Therefore, we recommend that CAPSA takes
steps to ensure that the financial information reported in FFRs matches the
financial information reported in CAPSA’s accounting records.

Progress Reports

      According to the OJP Financial Guide, progress reports are due
semiannually on January 30 and July 30 for the life of the award. We
reviewed the five most recent progress reports for each grant for a total of
15 reports and determined all but one report were submitted prior to the
progress report due dates. The progress report for Grant No.
2007-FW-AX-K003 covering January through June 2012 was submitted on
July 31, 2012, one day late. We do not take exception to this submission,
as one day does not constitute a significant lapse in time and it was the only
exception.

       We also reviewed the progress reports for accuracy. According to the
OJP Financial Guide, the funding recipient agrees to collect data appropriate
for facilitating reporting requirements established by Public Law 103-62 for
the Government Performance and Results Act. The funding recipient should
ensure that valid and auditable source documentation is available to support
all data collected for each performance measure specified in the program
solicitation. We reviewed and compared statistical data to verify
performance claims for the last year of the grants.


                                        15

      In order verify the information in progress reports, we selected a
sample of 2 program accomplishments from the 2 most recent progress
reports submitted for each grant for a total sample size of 12. We then
traced the items to supporting documentation maintained by CAPSA officials.
For Grant No. 2005-WH-AX-0038, we requested verification in the following
areas: (1) victims served, (2) housing assistance costs, (3) support
services, and (4) length of stay in the program. For Grant No.
2007-FW-AX-K003, we requested verification in the following areas:
(1) number of program staff trained, (2) training topics covered,
(3) planning/development meeting attendance, and (4) number of meeting
held. For Grant No.2009-EH-S6-0047, we requested verification in the
following areas: (1) housing units funded, (2) support services,
(3) demographics of victims served, and (4) destination upon exit from
program. CAPSA officials provided sufficient source documentation to
support the information reported to the OVW for all items in our sample.

Recovery Act Reports

      According to Section 1512 of the Recovery Act, reports on the use of
Recovery Act funding by recipients are due no later than the tenth day after
the end of each calendar quarter. We reviewed the submission times for the
two most recent Recovery Act reports for Grant No. 2009-EH-S6-0047 and
found that both reports were submitted on the twelfth day after the end of
the calendar quarter. We do not take exception to the submissions, as two
days does not constitute a significant lapse in time.

      We also reviewed the Recovery Act reports for accuracy. According to
Section 1512 of the Recovery Act, the recipient reports are required to
include the amount of funds spent on projects and activities, a description of
the projects and activities, estimates on jobs created or retained, and data
on payments made to both sub-recipients and vendors. We reviewed the
most recent report and determined CAPSA provided an accurate description
of the projects and activities and an accurate estimate of the number of jobs
created or retained.

      The cumulative expenditure amount – the amount of funds spent on
projects and activities – reported for the quarter ending June 30, 2012 was
the same amount reported in the FFR for the report period ending on the
same date. Like the FFR, cumulative expenditures reported in the Recovery
Act report totaled $215,341, which is $2,839 more than what was identified
in the accounting records.

     According to Section 1512 of the Recovery Act, the prime recipient is
responsible for reporting data on payments made to both sub-recipients and
vendors. Sub-recipients are non-federal entities that are awarded Recovery



                                     16

funding from the prime recipient to support the performance of any portion
of the substantive project or program for which the prime recipient received
the Recovery funding. A vendor is defined as a dealer, distributor,
merchant, or other seller providing goods or services. For the quarter
ending June 30, 2012, CAPSA understated cumulative sub-recipient
disbursements and overstated cumulative vendor expenditures, as shown in
Exhibit 6.

EXHIBIT 6: RECOVERY ACT PAYMENTS TO SUB-RECIPIENTS AND
           VENDOR
   REPORT                        REPORTED          ACTUAL         DIFFERENCE
   PERIOD                       CUMULATIVE       CUMULATIVE    BETWEEN REPORTED
  END DATE       RECIPIENT     DISBURSEMENTS   DISBURSEMENTS      AND ACTUAL
  06/30/12     Sub-Recipient     $ 22,347         $ 24,058         $(1,711)
  06/30/12        Vendor          149,578         133,246           16,332
Source: www.RecoveryAct.gov and CAPSA accounting records

       CAPSA reported the same cumulative sub-recipient disbursements
totaling $22,347 in its quarterly report ending March 31, 2012. There is an
April 2012 transaction for $1,711. It appears that CAPSA mistakenly
excluded the April 2012 transaction from the most recent report. In
response to our inquiry regarding the reported cumulative sub-recipient
disbursements, CAPSA officials stated that they were instructed to include
the cumulative disbursements paid to sub-recipients as part of the
cumulative disbursements paid to vendors. The issue is twofold: (1)
Recovery Act criteria requires that the sub-recipient and vendor
expenditures be reported separately and (2) the difference between the
reported and actual cumulative vendor disbursements was not fully
explained by subtracting out the sub-recipient disbursements.

      We recommend that CAPSA takes steps to ensure that the financial
information reported in Recovery Act reports matches the financial
information reported in CAPSA’s accounting records.

Program Performance and Accomplishments

      We reviewed the OVW grant solicitations and grant documentation,
and interviewed CAPSA officials to determine whether the program goals and
objectives were implemented. The goals and objectives for each grant and
the degree to which each grant met those goals and objectives are detailed
below.

Grant No. 2005-WH-AX-0038

      Grant No. 2005-WH-AX-0038 was funded by the Transitional Housing
Assistance Program, which supported programs that provide assistance to
victims of domestic violence, dating violence, sexual assault, and stalking


                                        17

who are in need of transitional housing, short-term housing assistance, and
related support services. CAPSA’s goals for the grant were to increase
survivors’ ability to establish safe affordable housing, build a life free of
abuse, and increase their level of self-sufficiency with a specific focus on
survivors with disabilities, survivors living in rural jurisdictions, and
immigrants. This included the following objectives: (1) provide case
management to 42 victims of domestic violence with the help of a full-time
Transitional Housing Coordinator, (2) provide ongoing support through
groups and seminars, and (3) provide case management with the help of a
full-time Children’s Advocate.

       CAPSA officials stated that the objectives were achieved. We found
that CAPSA provided financial assistance to 60 victims of domestic violence,
as of the start of our audit. This exceeds the number of victims intended to
be served. Both the Transitional Housing Coordinator position and Children’s
Advocate position were funded through the grant. Additionally, CAPSA
provided evidence of both workshops and support services. We determined
CAPSA’s assertion is reasonable, based on our review of CAPSA’s financial
records and other supporting documentation.

Grant No. 2007-FW-AX-K003

       Grant No. 2007-FW-AX-K003 was funded by the Disability Grant
Program, which provided funds to establish multidisciplinary collaborative
relationships and to increase organizational capacity to provide safe,
accessible, and responsive services to women with disabilities who are
victims of violence and abuse. CAPSA’s goals for the grant were to enhance
services for survivors of domestic abuse with mental health and intellectual
disabilities, in conjunction with partnering agencies. In October 2007,
CAPSA and three partnering organizations formed Northern Utah’s Choices
Out of Violence (NUCOV). NUCOV’s grant objectives included the following
work products: (1) relationship building, (2) a new charter, (3) a needs
assessment, (4) accessibility and safety audits, (5) a Memorandum of
Understanding (MOU), (6) policies, procedures, and practices, and
(7) System Navigation Advocacy Toolkit.

       The OVW grant manager responsible for overseeing this grant stated
that this award is a cooperative agreement and as such, the grant manager
works closely with CAPSA and approves all work products. We saw evidence
of a needs assessment, an accessibility and safety audit, an MOU, and the
Advocacy Toolkit, which includes policies and procedures. We also saw
minutes from a number of NUCOV partner meetings, further demonstrating
relationship building and policies, procedures, and practices. CAPSA officials
stated that service for victims with disabilities is now immediate, because a
case worker of their disability partner is available. CAPSA feels the program
is doing what it should and the staff have changed as they all strive to be



                                      18

more accessible. We determined the OVW's strong oversight, in conjunction
with the completed work products, demonstrate that CAPSA is achieving the
goals and objectives of the grant.
Grant No. 2009-EH-S6-0047

       Grant No. 2009-WH-S6-0047 was funded by the Recovery Act
Transitional Housing Assistance Program, which supported programs that
provide assistance to victims of domestic violence, dating violence, sexual
assault, and stalking who are in need of transitional housing, short-term
housing assistance, and related support services. CAPSA’s goals for the
grant were to increase survivors' ability to establish safe affordable housing,
build a life free of abuse, and increase their level of self-sufficiency with a
specific focus on survivors with disabilities, survivors living a rural
jurisdiction, and immigrants. This included the following objectives:
(1) provide case management to 21 victims of domestic violence with the
help of a full-time transitional housing coordinator, (2) provide ongoing
support through groups and seminars, and (3) provide individualized
financial counseling with the help of a part-time advocate.

       CAPSA officials stated that the objectives were achieved. We found
that CAPSA provided financial assistance to 20 victims of domestic violence,
as of the start of our audit. This is only one client less than the number
intended to be served. The grant is not scheduled to end until June 2013,
meaning CAPSA is likely to enroll at least one additional client. The
Transitional Housing Coordinator position was funded through the grant.
CAPSA provided evidence of both workshops and support services. Finally,
we saw evidence that a sub-recipient has provided individual financial
counseling, as intended. We determined CAPSA’s assertion is reasonable,
based on our review of CAPSA’s financial records and other supporting
documentation.

Conclusion

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, terms and
conditions of the grant; and to determine whether the program goals and
objectives were implemented. We examined CAPSA’s accounting records,
budget documents, financial and progress reports, and operating policies
and procedures. We found:

   •	 $9,041 in unallowable costs used to purchase items that were not
      included as part of the approved grant budgets for all three grants,




                                      19

•	 $1,555 in unallowable costs used to reimburse staff and make
   purchases at rates that exceeded the rates approved in the grant
   budgets for Grant Nos. 2005-WH-AX-0038 and 2007-FW-AX-K003,

•	 $490 unallowable costs used to purchase prohibited items for all three
   grants,

•	 $14,850 in unallowable costs used for salary and fringe benefits
   expenditures that were not included as part of the approved grant
   budgets for Grant Nos. 2005-WH-AX-0038 and 2007-FW-AX-K003,

•	 $1,971 in unallowable costs used for salary expenditures charged to
   the grants that exceeded an appropriate cost allocation based on time
   worked on the grants for Grant Nos. 2005-WH-AX-0038 and
   2009-EH-S6-0047,

•	 CAPSA did not consistently obtain supervisor approval on timesheets,
   and

•	 CAPSA reported financial information in both FFRs and Recovery Act
   reports that did not match the organization’s accounting records.




                                  20

Recommendations

We recommend that the OVW coordinate with CAPSA to:

     1. Remedy the $9,041 in unallowable costs used to purchase items
        that were not included as part of the approved grant budgets.

     2. Remedy the $1,555 in unallowable costs used to reimburse staff
        and make purchases at rates that exceeded the rates approved in
        the grant budgets.

     3. Remedy the $490 unallowable costs used to purchase prohibited
        items.

     4. Remedy the $14,850 in unallowable costs used for salary and fringe
        benefits expenditures that were not included as part of the
        approved grant budgets.

     5. Remedy the $1,971 in unallowable costs used for salary
        expenditures charged to the grants that exceeded an appropriate
        cost allocation based on time worked on the grants.

     6. Ensure that timesheets are consistently reviewed by the
        appropriate supervisor.

     7. Ensure the financial information reported in FFRs and the Recovery
        Act reports match the financial information reported in CAPSA’s
        accounting records.




                                   21

                                                                APPENDIX I

               OBJECTIVES, SCOPE, AND METHODOLOGY

       The objectives of this audit are to review performance in the following
areas: (1) internal control environment, (2) drawdowns, (3) grant-related
transactions, including personnel costs, (4) budget management and control,
(5) financial and progress reports, (6) award requirements, (7) monitoring of
subrecipients, (8) property management, and (9) program performance and
accomplishments. We determined that indirect costs, program income, and
matching were not applicable to these awards. We tested compliance with
what we consider to be the most important conditions of the grants. Unless
otherwise stated in this report, the criteria we audit against are contained in
the OJP Financial Guide, the 2012 OVW Financial Grants Management Guide
where applicable, and the award documentation.

       Our audit concentrated on, but was not limited to September 12,
2005, the award date of Grant No. 2005-WH-AX-0038, through August 20,
2012, the first day our fieldwork. This was an audit of the OVW Grant Nos.
2005-WH-AX-0038, 2007-FW-AX-K003, and 2009-EH-S6-0047 awarded to
CAPSA. CAPSA had drawn down a total of $1,606,341 in grant funds as of
July, 31 2012.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      In conducting our audit, we performed sample testing in four areas,
which were grant expenditures (including personnel expenditures), Financial
Reports, progress reports, and Recovery Act reports. In this effort, we
employed a judgmental sampling design to obtain broad exposure to
numerous facets of the awards reviewed, such as dollar amounts,
expenditure category, or risk. However, this non-statistical sample design
does not allow a projection of the test results for all grant expenditures or
internal controls and procedures.

      In addition, we evaluated internal control procedures (including
monitoring of sub-recipients), drawdowns, budget management and
controls, compliance with grant requirements, and program performance and
accomplishments. However, we did not test the reliability of the financial
management system as a whole and reliance on computer based data was
not significant to our objective.


                                      22

                                                                         APPENDIX II


                 SCHEDULE OF DOLLAR-RELATED FINDINGS


                           7
QUESTIONED COSTS                                        AMOUNT             PAGE

Non-payroll Items:

Unallowable Costs – Not in Budget                         $9,041             8-9


Unallowable Costs – Excess Rates                          $1,555              10


Unallowable Costs – Prohibited Items                         $490           10-11


Payroll:


Unallowable Costs – Not in Budget                        $14,850            11-12


Unallowable Costs – Excess Pay                            $1,971            12-13


TOTAL QUESTIONED COSTS                                  $27,907


TOTAL DOLLAR-RELATED FINDINGS                           $27,907





      7
          Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.


                                           23

                                                                                                APPENDIX III

 CITIZENS AGAINST PHYSICAL AND SEXUAL ABUSE
       RESPONSE TO DRAFT AUDIT REPORT

      COMMUNITY                       ABUSE         PREVENTION               SERVICES                  AGENCY
      P_ O _ !OX 3617 • LOG A N. UT A H· e H2 3·H17 • BUS I NESS: 152 · 449 3 .   CR ISI S: 1 03· H OO •   ~   ... x: 1 53 · 7 0U




o.;",b,,, 19, 2012

u.s. Department of Justice
Office of the Inspector Genera!
David Sheeren, Ree!onal Audit Manaeer
Denver Regional Audit Office
1120 Lincoln, Suite 1500
Denver, CO 80203

Dear Mr. Sheeren,

please find below and attached CAPSA's response to the Office of the Inspector General Draft Audit
Report recommendations.

1. Remedy the $9,041 used 10 purchase Items not Included as part of the approved IIrant budllels.
        We agree the Items listed under this recommendation were not speciflcally named In the grant
budgets. We believed they appropriately fell Into more general categories listed in the grant budget.
We wilt work with OVW to remedy these items.


2. Remedy the $1,566 used to reimburse staff and make purchases In excess of rates approved In the
grant budget.
        We agree that the per-person rates exceeded what was specifically listed In the grant budget.
While we stayed w!th ln the total amount allocated, once gratuity was added in the per-person rate for
the specific Items listed were over the per-person rate estimated In the budget. We will work with OVW
to remedy these Items.

3. Remedy the $491 used to purchase prohibited Items.
        We have re£elved conflicting Information about whether or not these Items are prohibited. We
will work with OVW to   flnaff~e   and remedy these items.


4. Remedy the$14,850 for salary and fringe benefits not included as part of approved grant budgets.
        We agree that the salary and fringe benefits were not included as part of the approved budget
or in any record of a GAN. We have remedied part of thIs recommendation through GAN "351024 and
will continue to work with OVW to resolve the remaining Items.

5. Remedy the $1,971 used for salary expenditures charged to the grants that exceeded the cost
allocation based on time worklld on the grant.
       We agree that the times sheets specifically addressing these salary e~pendltures were not
documented correctly. The TH Caseworker has always worked 100% time on TH activities. Prior to this




                         SERVING CA C HE VAllEY SINCE                   1976




                                                    24

time period the TH Caseworker was paid Y, time by private donatlons/fundraisers and Y, by the TH grant.
When our private donations and fundralsers began to dwindle we received IH!rmission to charge 100%
of her time to the TH grant since 100% of her time has always been on TH activities (we could not find
written record of this approval). The TH caseworker forgot to change how she recorded which funding
source was paying for her time. We will work with OVW to remedy this Item.

6. Ensure that time sheets are consistently siSned by appropriate supervisor.
        CAPSA's Payron procedures have been revised to ensure all time sheets have appropriate
supervisor signature. Please see attached revised procedure

7. Ensure flnandal Information reported In the FFR's and Recovery Act reports match the fi nancial
Information reported In CAPSA's financial records.
       CAPSA's Fiscal procedures related to grant billing have been revised with an addillonal step to
ensure the FFR's and Recovery Act reports match the financia l Information reponed In CAPSA's financial
records each month. Please see attached revised procedure.

Please let me know If addillonal clarification Is necessary. Thank you again for your work with CAPSA
throughout the OIG audit process,

Sincerely,




Jill W. Anderson
Executive Director




                                                 25

                                                                                          APPENDIX IV

            OFFICE ON VIOLENCE AGAINST WOMEN
             RESPONSE TO DRAFT AUDIT REPORT

                                                     u.s, Department of Justice
                                                     Office on Violence Against Wome n




                                                     Washingtoll, D.C. 20530


                                                                               January 15, 2013


MEMORANDUM


TO:                   David Sheeren
                      Regional Audit Manager
                      Denver Regional Audit Office

FROM:                 Bea Hanson /II ~
                      Acting Direc~or\ 1
                      Office on Violence Against Women

                      Rodney Samuels      -M
                      Staff Accountant/Audit Liaison
                      Office on Violence Against Women

SUBJECT:              Draft Audit Report - Audit of the Office on Violence Against Women
                      Grants Awarded to the Citizens Against Physical and Sexual Abuse,
                      Logan, Utah


This memorandum is in respollse to your correspondence dated November 30, 2012
transmitting the above draft audit report for Citizens Against Physical and Sexual Abuse
(CAPSA). We consider the subject report resolved and request written acceptance of this action
from your office.

The report contains seven recommendations which include $38,997 in unallowable costs. The
Office on Violence Against Women (OVW) agrees with the recommendations and is
committed to working with the grantee to address each item and bring them to a close as
quickly as possible. The following is an analysis of each audit recommendation. Please note
that OVW is requesting closure for recommendation numbers 6 and 7.




                                              26

1.   Remedy $9,041 in unallowable costs used to purchase items tbat were not
     included as part of the approved grant budgets.

     We agree with this recommendation. We will coordinate with CAPSA to remedy
     $9.041 in unallowable costs used to purchase items that were not included as part of
     the approved grant budgets.

2.   Remedy the $1,556 in unallowable costs used to reimburse staff and make
     purchases at rates the exceeded the rates approved in the grant budgets.

     We agree with this recommendation. We will coordinate with CAPSA to remedy
     the $1 ,556 in unallowable costs used to reimburse staff and make purchases at rates
     the exceeded the rates approved in the grant budgets.

3.   Remedy the $491 in unallowable costs used to purchase prohibited items.

     We agree with this recommendation. We will coordinate with CAPSA to remedy
     the $491 in unallowable costs used to purchase prohibited items.

4.   Remedy the $14,850 in unallowable costs used for salary and fringe benefits
     expenditures that were not included as part of the approved grant budgets.

     We agree with this recommendation. We will coordinate with CAPSA to remedy
     the $14,850 in unallowable costs used for salary and fringe benefits expenditures
     that were not included as part of the approved grant budgets.

5.   Remedy the $1,971 in unallowable costs used for salary expenditures charged
     to the grants that exceeded an appropriate cost allocation based on time
     worked on the grants.

     We agree with this recommendation. We will coordinate with CAPSA to remedy
     the $1 ,971 in unallowable cosls used for salary expenditures charged to the grants
     that exceeded an appropriate cost allocation based on time worked on the grants.

6.   Ensure that timesheets arc consistently reviewed by the appropriate
     supervisor.

     We have obtained the necessary document to ensure that timesheets are consistently
     reviewed by the appropriate supervisor. See attachments.




                                         2




                                          27

      7.      Ensure thaI financial information reported in the FFRs and the Recovery Act
              reports match the financial information reported in CAPSA's accounting
              records.

              We have obtained the necessary document to ensure that financial information
              reported in the FFRs and the Recovery Act reports match the financial information
              reported in CAPSA' s accounting records. See attachments.


We appreciate the opportunity to review and comment on the draft report. We will continue to
work with CAPSA to address each recommendation. If you have any questions or require
additional information, please contact Rodney Samuels of my staff at:
(202) 514-9820.

cc:        Louise M. DuHamel
           Acting Assistant Director
           Audit Liaison Group
           Justice Management Division

           Angela Wood
           Budget Officer
           Office on Violence Against Women

           Paule Tessier
           Program Specialist
           Office on Violence Against Women




                                                 3




                                                 28

                                                                           APPENDIX V

                     OFFICE OF THE INSPECTOR GENERAL

                    ANALYSIS AND SUMMARY OF ACTIONS

                      NECESSARY TO CLOSE THE REPORT


      The OIG provided a draft of this audit report to CAPSA and the OVW.
The responses are incorporated into Appendixes III and IV of this final
report. CAPSA’s response included updated policy documentation relating to
recommendations 6 and 7 of this report. Additionally, CAPSA submitted and
OVW approved a retroactive GAN related to recommendation 4. The
following provides the OIG analysis of the responses and summary of actions
necessary to close the report.

1.	    Resolved. The OVW concurred with our recommendation to remedy
       the $9,041 in unallowable costs used to purchase items that were not
       included as part of the approved grant budgets. The OVW stated in its
       response that it will coordinate with CAPSA to remedy the unallowable
       costs.

       This recommendation can be closed when we receive evidence that the
       OVW coordinated with CAPSA to remedy the $9,041 in unallowable
       costs used to purchase items that were not included as part of the
       approved grant budgets.

2.	    Resolved. The OVW concurred with our recommendation to remedy
       the $1,555 in unallowable costs used to reimburse staff and make
       purchases at rates that exceeded the rates approved in the grant
       budgets. 8 The OVW stated in its response that it will coordinate with
       CAPSA to remedy the unallowable costs.

       This recommendation can be closed when we receive evidence that the
       OVW coordinated with CAPSA to remedy the $1,555 in unallowable
       costs used to reimburse staff and make purchases at rates that
       exceeded the rates approved in the grant budgets.

3.	    Resolved. The OVW concurred with our recommendation to remedy
       the $490 unallowable costs used to purchase prohibited items. 9 The
       OVW stated in its response that it will coordinate with CAPSA to
       remedy the unallowable costs.


       8
         The difference between the unallowable costs identified here and the unallowable
costs identified by CAPSA and the OVW is due to an adjustment related to rounding.
       9
         The difference between the unallowable costs identified here and the unallowable
costs identified by CAPSA and the OVW is due to an adjustment related to rounding.


                                            29

       This recommendation can be closed when we receive evidence that the
       OVW coordinated with CAPSA to remedy the $490 unallowable costs
       used to purchase prohibited items.

4. 	   Resolved. The OVW concurred with our recommendation to remedy
       the $14,850 in unallowable costs used for salary and fringe benefits
       expenditures that were not included as part of the approved grant
       budgets. The OVW stated in its response that it will coordinate with
       CAPSA to remedy the unallowable costs.

       We reviewed a GAN approved by the OVW that provided retroactive
       approval for the inclusion of the Operations Director position in the
       budget for Grant No. 2007-FW-AX-K003. The GAN included approval
       of the $12,430 in salary and fringe benefits costs related to the
       position. As a result we consider $12,430 of the $14,850 in
       questioned costs for salary and fringe benefits to be remedied.

       This recommendation can be closed when we receive evidence that the
       OVW coordinated with CAPSA to remedy the remaining $2,420 in
       unallowable costs used for salary and fringe benefits expenditures that
       were not included as part of the approved grant budgets.

5. 	   Resolved. The OVW concurred with our recommendation to remedy
       the $1,971 in unallowable costs used for salary expenditures charged
       to the grants that exceeded an appropriate cost allocation based on
       time worked on the grants. The OVW stated in its response that it will
       coordinate with CAPSA to remedy the unallowable costs.

       In their response, CAPSA officials agreed that the timesheets were not
       documented correctly. They stated that for one of the employees in
       question, the grant was properly charged for time worked and the
       timesheets were incorrect. Grant criteria stipulate that cost allocations
       must be made based on time and/or effort reports (e.g., timesheets).
       For the purposes of our analysis, we relied and the timesheets, which
       was the official documentation for grant payroll.

       This recommendation can be closed when we receive evidence that the
       OVW coordinated with CAPSA to remedy the $1,971 in unallowable
       costs used for salary expenditures charged to the grants that exceeded
       an appropriate cost allocation based on time worked on the grants.

6. 	   Closed. We recommended that the OVW ensure that the timesheets
       are consistently reviewed by the appropriate supervisor. The OVW
       concurred with our recommendation and CAPSA provided
       documentation demonstrating that they updated their payroll policies
       and procedures. CAPSA added language to the policies and



                                       30

      procedures which included ensuring that all time sheets include a
      signature from a direct supervisor or a member of administration.

      We reviewed this documentation and determined it adequately
      addressed our recommendation. Therefore, this recommendation is
      closed.

7.	   Closed. We recommended that the OVW ensure the financial
      information reported in FFRs and the Recovery Act reports match the
      financial information reported in CAPSA’s accounting records. The
      OVW concurred with our recommendation and CAPSA provided
      documentation demonstrating that they updated their billing policies
      and procedures. CAPSA added language, which included reconciling
      the grants’ financial reports created using CAPSA’s accounting records
      with the spreadsheet the Executive Director uses for grant reporting.

      We reviewed this documentation and determined it adequately
      addressed our recommendation. Therefore, this recommendation is
      closed.




                                     31

